No. 19-847
IN THE

Supreme Court of the United States
JONATHAN REISMAN,
v.

Petitioner,

ASSOCIATED FACULTIES OF THE UNIVERSITY OF MAINE, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the First Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the
SUPPLEMENTAL BRIEF FOR RESPONDENT ASSOCIATED FACULTIES OF
THE UNIVERSITIES OF MAINE in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
1,197 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 8, 2020.
/s/ Jacob Karabell
JACOB KARABELL
(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jkarabell@bredhoff.com
Counsel for Respondent Associated Faculties of the
Universities of Maine

